IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
ANTON TUOMI,
PETITIONER,
VS.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
STATE OF FLORIDA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

ARTHUR L. WALLACE, III, ESQ.
Counsel for the Defense
Florida Bar No. 769479
Arthur Wallace
Attorney at Law PLLC
1835 E. Hallandale Bch. Blvd.
Ste. 784
Hallandale Bch., FL 33009
Phone/Text: (954) 213-4032
Email:WallaceLawFirm@Yahoo.com

2

QUESTIONS PRESENTED FOR REVIEW
Issue 1: Whether the appellate court erred in concluding
that petitioner was not denied his right to counsel when
the state court accepted petitioner’s motion to withdraw
his guilty plea without first appointing him new conflict
free counsel or providing him an opportunity to confer with
conflict free counsel.

Issue 2: Whether the appellate court erred in concluding
that petitioner’s appellate counsel was not ineffective for
failing to argue that he had been denied his right to
conflict free counsel before withdrawing his guilty plea

Issue 3: Whether the appellate court erred in concluding
petitioner’s appellate counsel was not ineffective for
failing to raise a claim that petitioner did not knowingly
and voluntarily waive his right to conflict free counsel in
violation of Faretta v. California.

3
- PrefixIN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
ANTON TUOMI,
PETITIONER,
VS.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
STATE OF FLORIDA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
The Petitioner, ANTON TUOMI, respectfully prays that a
writ of certiorari issue to review the judgment-order of
the United States Court of Appeals for the Eleventh Circuit
entered on November 13, 2020 Case No. 17-14373-EE; Southern
District of Florida Case Number 16-cv-80542-RLR.

4
TABLE OF CONTENTS
TABLE OF CONTENTS

4

TABLE OF CITATIONS

5

OPINION BELOW

6

JURISDICTION

6

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

6

STATEMENT OF THE CASE

6

COURSE OF PROCEEDINGS

7

STATEMENT OF FACTS

16

REASONS FOR GRANTING THE WRIT

23

CONCLUSION

41

5
TABLE OF CITATIONS
Cases
Banks v. State, 927 So.2d 169 (Fla. 1st DCA 2006)

26

Brooks v. Comm’r, Ala. Dep’t of Corr.,
719 F.3d 1292, 1300 (11th Cir. 2013)

36

Corp v. State, 698 So. 2d 1349 (Fla. 1st DCA 1997)

34

Faretta v. California, 422 U.S. 806 (1975)

37

Mosley v. State, 932 So.2d 1239 (Fla. 1st DCA 2006)

26

Norman v. State, 897 So.2d 553 (Fla. 1st DCA 2005)

26

Padgett v. State, 743 So.2d 70 (Fla. 4th DCA 1999)

24

State v. Schriber, 959 So.2d 1254 (Fla. 4th DCA 2007)

23

Meeks v. State, 841 So.2d 648 (Fla. 2d DCA 2003)

26

Ruff v. State, 840 So. 2d 1145 (Fla. 5th DCA 2003)

34

Rutherford v. Moore, 774 So. 2d 637, 643 (Fla. 2000)

36

Smith v. State, 849 So.2d 485 (Fla. 2d DCA 2003)

26

Strickland v. Washington, 466 U.S. 690 (1984)

37

Wofford v. State, 819 So.2d 891 (Fla. 1st DCA 2002)

26

Statutes and Rules
Title 18 U.S.C. 922(g)

7

Fla.R.App.P. 9.140(b)(2)(A)(ii)

27

Fla.R.Crim. P. 3.170(l)

23

Fla.R.Crim.P. 3.800(b)

25

6
OPINION BELOW
On November 13, 2020, the Eleventh Circuit Court of
Appeals entered its opinion-order affirming Petitioner’s
denial of his 18 U.S.C. §2254 petition, Case No. 16-cv89542-RLR. A copy of the opinion-order is attached hereto
as Appendix A.
JURISDICTION
Jurisdiction of this Court is invoked under Title 28,
United States Code §1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner has been deprived of his liberty without
due process of law as guaranteed by the Sixth and
Fourteenth Amendment to the Constitution of the United
States.
STATEMENT OF THE CASE
Petitioner was the petitioner in the District Court
and will be referred to by his name or as the petitioner.
The respondent, the Secretary, Florida Department of
Corrections, Attorney General, State of Florida, will be
referred to as the respondent.

The record will be noted by

reference to the volume number, docket entry number of the
Record on Appeal as prescribed by the rules of this Court.
References to the transcripts will be referred to by the
docket entry number and the page of the transcript.

7
The

petitioner

is

incarcerated

and

is

serving

his

sentence in the State of Florida, Department of Corrections
at the time of this writing.
Course of the Proceedings and Disposition in the Court
Below
This case began when petitioner was originally
arrested on December 5, 2009 and on charged by information
in the Fifteenth Judicial Circuit Court, in and for Palm
Beach County, Florida (hereinafter referred to as “the
trial court”), on December 31, 2010, assigned Case No. 0915311CF10A with one count of felony battery (battery with
bodily injury as distinguished from a felony battery
charged as a battery enhanced due to a prior battery
conviction) and one count of misdemeanor criminal mischief
(DE 11-2-5). Petitioner originally settled the case by way
of a negotiated guilty plea agreement with the State of
Florida, was adjudged to be guilty and sentenced to serve
twenty-four (24) months Florida State Prison as directed by
the contemporaneously prepared Fla.R.Crim.P. 3.992(a)
Criminal Punishment Code Scoresheet, (hereinafter referred
to as “the scoresheet”) with an additional restitution
penalty, the judgment and sentence being ordered on June 1,
2010 (DE 11-2-5). In the trial court, during the entire

8
case up to the time of his guilty plea, petitioner was,
having been declared to be indigent by the trial court,
represented by court appointed counsel from the Office of
the Public Defender, Fifteenth Circuit (hereinafter
referred to as “the public defender”). On June 24, 2010
petitioner’s written judgment of conviction and twenty four
(24) month state prison sentence was entered and docketed
in the trial court (hereinafter referred to as “the
sentence”). Thereafter, On June 30, 2010, the public
defender filed a counseled, written motion on behalf of
appellant entitled Motion to Withdraw Plea, Motion to
Withdraw from Representation, and Appoint Conflict Free
Counsel which motion alleged affirmative mis-advice by the
public defender (ineffective assistance of counsel by the
filing counsel, the public defender) concerning the legal
advice provided to appellant in counseling appellant to
accept the two year prison negotiated guilty plea where the
sentencing guideline scoresheet waw incorrectly computed by
the prosecutor and the public defender and accepted by the
trial court in the first instance, mandated that appellant
serve a guideline required state prison term, rather than a
guideline recommended non-state prison sanction based upon
the charges. The nature of the error involved the numerical
value assigned to the primary offense of felony battery,

9
which was plainly mistaken, said mistake having been
overlooked by the prosecutor, the public defender and the
trial court. The original scoresheet was computed with a
value of 36 assigned to the felony batter primary offense,
which represents a level 6 offense. This was as will be
explained in detail below and mistaken, because the felony
battery charge was amended from a felony battery with
injury to a felony battery with a prior battery. The latter
is a level 1 offense (rather than level 6) with an assigned
value of 4 (rather than 36, a 32 point reduction. The
original scoresheet as computed totaled 47.4 sentence
points. If the total sentence points are less than or equal
to 44, the lowest permissible sentence is a non-state
prison sanction. If the total sentence points are greater
than 44 (as in the scoresheet), a state prison sentence is
computed by subtracting 28 from the total sentence points
of 47.4 and then multiplying the result by .75 which in
appellant’s case was computed as 47.4 – 28 = 19.4 x .75 =
14.55 months as the lowest permissible prison sentence in
months. The scoresheet should have been computed as 15.4;
32 points lower, the difference between level 6 (36 points)
and level 1 (4 points). As the total sentence points were
less than or equal to 44, the lowest permissible sentence
was any non-state prison sentence. (Aplt. Appx. 1)

As

10
explained in detail later by the prosecutor and the public
defender, the scoresheet mistake arose from an amendment to
the charging document information which when originally
filed charged felony battery based upon allegations of
victim injury which were the result of the alleged battery.
(Aplt. Appx. 2) Thereafter an amended information was filed
which modified the felony battery triggering allegation
from alleged victim injury (which was deleted) to an
allegation that the charged battery was committed
subsequent to conviction for a prior non-felony
(misdemeanor) battery. (Aplt. Appx. 3) The practical effect
of this charge amendment, and the computation changes
explained above, was to convert appellant’s possible
sentence from a 14.55 lowest permissible prison sentence to
any non-state prison sanction. The record reflects that no
one in the courtroom caught the mistake arising from the
filing of the amended information. This mutual mistake
directly prejudiced appellant as his negotiated plea was
clearly influenced by the mistakenly computed higher
guideline total offense value which led the prosecutor, the
public defender, the trial court and appellant all to
mutually and mistakenly assume and believe that the trial
court’s sentencing options were restricted to the guideline
required state prison sentence originally imposed. On June

11
30, 2010, the public defender filed a motion to vacate the
original plea admitting failure to provide effective
assistance of counsel based upon the scoresheet. (Aplt.
Appx. 4) Additionally, in the motion, counsel requested
permission from the trial court to allow the public
defender to withdraw as counsel for petitioner, and,
finally to appoint new, conflict free counsel for
petitioner prior to proceeding on the motion to withdraw
guilty plea and/or any other future proceedings. On July 9,
2010 the trial court denied the motion holding that “He
(petitioner) received the benefit of the bargain and should
not be allowed to withdraw his plea”. (Aplt. Appx. 5) The
trial court declined to rule on the public defender’s
motion to withdraw as counsel for petitioner and did not
appoint a new conflict-free counsel to represent
petitioner. Subsequent to this order, the public defender
did not file any other motions and thus petitioner
effectively represented himself until the August 27, 2010
hearing described later herein. Docketed on July 9, 2010,
petitioner filed his pro-se, motion entitled “Motion to
Withdraw Plea After Sentencing FL.Rule 3.170(l)”, alleging
that due to mistakenly computed scoresheet that his 24
month prison sentence was illegal, and in paragraph 10
thereof stating that he was “mislead by his Public Defender

12
Angela Maria Pagan and coerced into accepting unlawful plea
through fear and ignorance of Florida law” (DE 11-2-25). On
July 29, 2010, while petitioner’s pro se Motion to Withdraw
Plea After Sentencing remained pending, petitioner filed
his first pro se Motion for Correction of Sentence which
reiterated his claim regarding the mistakenly computed
scoresheet issue again and asking the court for “Criminal
Punishment Code Scoresheet correction to reflect the change
in the nature of the felony battery charge which would
reflect the lower primary offense level and ultimate score
number”. (Aplt. Appx. 6) On August 3, 2019, the trial court
entered an order denying petitioner’s first pro se Motion
to Correct Sentence, without a hearing, reiterating the
language in its July 9, 2010 order denying the Motion to
Withdraw Plea filed by the public defender, with both
orders finding that the scoresheet information was correct
(in fact the scoresheet was incorrect as conceded by all
parties and counsel and the trial court at the August 27,
2010 hearing). (Aplt. Appx. 7) On August 17, 2010,
petitioner filed his second pro se motion to correct
sentence entitled “Defendant’s Amended Motion for
Correction of Sentence” which alleged eight grounds for
relief that included in ground four thereof that the
scoresheet was mistakenly computed as previously argued and

13
requesting the trial court to correct the illegal sentence
scoresheet and resentence him appropriately using a
corrected scoresheet. (Aplt. Appx. 8) On August 26, 2010,
the trial court entered an order denying petitioner’s pro
se Amended Motion to Withdraw Plea holding that the issues
were redundant to the other motions which the trial court
had previously considered and denied (the mistaken
scoresheet issue). (Aplt. Appx. 9) On August 27, 2010, the
trial court conducted a status hearing in open court and
thereafter entered it’s handwritten order entitled: “Order
on Motion of Defendant; Motion for Correction of Sentence”
which in pertinent part: 1) set aside the prior judgment
and 24 month state prison sentence; 2) held that the
scoresheet was in fact mistakenly computed and discussed
above; 3) he (petitioner) has also asserted that this
attorney forced him to enter the plea; and 4) appointed new
counsel for petitioner and re-set the case for trial. On
August 27, 2010, the only remaining motion pending before
the court was petitioner’s second pro se motion to correct
sentence entitled Amended Motion to Correct Sentence.
(Aplt. Appx. 10) Four days later on August 31, 2010, the
state attorney filed an amended information charging
petitioner with aggravated battery and criminal mischief
(DE 11-2-65). The next day, on September 1, 2010 the state

14
attorney filed a Notice of Intent to Seek Enhanced
Penalties against appellant based upon petitioner’s
qualification as a Prison Release Re-offender and intent to
seek the maximum statutory penalty. Shortly thereafter, the
newly appointed, conflict-free counsel, the Office of
Regional Conflict Counsel moved to withdraw because the
office had previously represented one of the witnessed in
the case (DE 11-2 p. 68). The trial court granted the
motion and appointed a new conflict-free counsel attorney
Samuel Marshall to represent petitioner (Aplt. Appx. 11).
Petitioner motioned the trial court for a Nelson v. State,
274 So. 2d 256 (Fla. 4th DCA 1973) inquiry hearing to
discharge Samuel Marshall for lack of competence (correctly
arguing that attorney Marshall’s area of expertise was not
in the field of criminal defense) (DE 11-2 p. 73-74) and
thereafter attorney Marshall moved to withdraw from his
appointment to represent appellant (DE 11-2 p. 85) which
was granted. Petitioner thereafter filed a written waiver
of counsel (DE 11-2 p. 82-83) and the trial court granted
attorney Marshall’s motion to withdraw, no other counsel
was appointed and thereafter petitioner represented himself
pro se (DE 11-2 p. 88). The trial court failed to conduct
an inquiry of petitioner at any time as required by Faretta
v. California, 422 U.S. 806 (1975). Petitioner proceeded to

15
jury trial and was found guilty of the newly amended and
increased charge of aggravated battery (DE 11-2 p. 286-87)
and not guilty of criminal mischief (DE 11-3 p. 9).
Petitioner was adjudicated guilty and sentenced to a
minimum sentence of fifteen (15) years Florida state prison
due to the amended information and prison release reoffender designation filed days after his original guilty
plea was vacated (DE 11-3 p. 6-9). On April 25, 2013
petitioner filed a motion for post-conviction relief
pursuant to Florida Rule of Criminal Procedure 3.850,
raising numerous issues and alleging that the trial court
erred in not appointing conflict-free counsel to represent
him during the litigation of his motion to withdraw plea
(Aple. Appx. A2). The trial court denied the motion without
a hearing (Aple. Appx. A3). Petitioner appealed this order
and the decision was affirmed per curium. Toumi v. State,
166 So.3d 801 (Fla. 4th DCA 2015). 18 On April 6, 2016,
Petitioner filed his present 18 U.S.C. §2254 petition for
writ of habeas corpus, alleging twelve grounds for relief,
including claims that: 1) the trial court erred in failing
to appoint conflict-free counsel for the motion to withdraw
guilty plea litigation, and 2) that his appellate counsel
rendered ineffective assistance of appellate counsel in
failing to argue on appeal that the trial court erred in

16
failing to appoint appellant conflict-free counsel for the
motion to withdraw plea litigation, and 3) that his
appellate counsel rendered ineffective assistance of
appellate counsel in failing to argue on appeal that the
trial court erred in failing to conduct a legally
sufficient Faretta v. California, 422 U.S. 806 (1975)
hearing at any time (DE 1). The magistrate court entered
its report and recommendation that appellant’s habeas
corpus petition be denied on the merits, without a hearing
(DE 19). The district court adopted the report and
recommendation and denied petitioner’s petition. (DE 28)
Petitioner filed his appeal which was denied by the
Eleventh Circuit Court of Appeals. This petition ensues.
Statement of the Facts
The facts and factual basis on appeal arise from the
record of the filed transcripts of the lower court
proceedings as well as the motions and responses filed in
the cases below directed to the relief sought below.
During the August 27, 2019 status hearing, the public
defender addressed the trial court as follows: “Your Honor,
this is a status check on a motion to withdraw plea. My
client had filed his own motion to withdraw plea and you
had filed an order denying it; however, I don’t really

17
think from his motion that you understood the grounds
because we both believe that he does have the right to
withdraw his plea. Initially my client was charged with a
Level 6 felony battery based on serious bodily injury;
however, he took a plea—literally the jury was coming in;
we were sitting down, we were starting jury trial; and he
took a plea to felony battery based on priors, which is a
level 1 offense, When we did the plea paperwork and the
paperwork was filed, the incorrect score-sheet was filed
based on the Level 6 offense instead of the Level 1 offense
(Aplt. Appx. 1). The prosecutor then argued that an
evidentiary hearing was required prior to any action
regarding petitioner’s guilty plea and agreed that prior
thereto, conflict-free counsel should be appointed to
represent petitioner at the hearing based upon the obvious
conflict present between the public defender and petitioner
during the hearing. The prosecutor argued: “I don’t think
it’s appropriate for Ms. Pagan to stay on the case so I
think the right thing to do is to appoint conflict counsel
and set it for another hearing, and then we can—you can
decide if the plea was voluntary or not (Aplt. Appx. Ex.
12). Petitioner then addressed the trial court and repeated
his argument in his pro se Motion to Correct Sentence based
upon the mistaken scoresheet (Aplt. Appx. 12) The

18
prosecutor then advised the trial court, in the presence of
petitioner, that petitioner was only charged with felony
battery and to avoid the need to transport the victim from
out of town, but the charge could be amended to aggravated
battery and if convicted appellant would face a mandatory
minimum 15 year Florida state prison sentence (due to the
enhancement noted above) (Aplt. Appx. Ex. 12). The trial
court asked the prosecutor if she wanted an evidentiary
hearing of if he wanted to just have a jury trial instead
and she replied: “Let’s just have a trial.” (Aplt. Appx.
Ex. 12) The trial court granted the motion, discharged the
public defender and then appointed the Office of Regional
Conflict Counsel to represent petitioner (there was no
evidentiary hearing or findings of fact to support the
vacating of appellant’s plea)(Aplt. Appx. Ex, 12). As
indicated above, petitioner represented himself at his jury
trial with no record of any Faretta v. California, 422 U.S.
806 (1975) inquiry by the trial court regarding whether
petitioner’s decision to proceed without a lawyer was
knowingly and intelligently made. Before the jury trial,
the trial court addressed appellant regarding what a lawyer
might do during a jury trial:
THE COURT: Right. Yeah, so a lawyer, as you know, has
the experience and knowledge of the entire process, and the

19
lawyer’s job would be to argue for your side and present
your best legal argument. Jury—what we’re about to start is
the jury qualification procedure, and they usually have—the
lawyers usually have a desire or a thought about—the good
ones, anyway, they have what type of person they think
would be best for your case, so you—that’s what you should
thing about, and we’re going to ask these jurors questions
about what they do for a living and what—you know, that
sort of thing, personal information about them and go over
some legal principals with them. So when I’m questioning
them and when the other lawyer is questioning them, you
should be looking at them and deciding, “is this a juror
that I think would be sympathetic to my situation or not.”
And – you know, so you will have the ability to –for six
people, have the ability to say, “I don’t want this person,
that person.” Six of them, you get six peremptory
challenges, we call them, Do you understand?
MR. TOUMI: Okay.
THE COURT: In other words, you can bump six of
them. Do you have a list of their names?
MR. TOUMI: Yes.
THE COURT: Okay, You can write little information
about them, whether you like them—you know, “This is a
plus person for me or a minus,” on that sheet. A

20
lawyer would know his to do that; a lawyer can also,
of courts, get witnesses here and question the
witnesses and question other people and give you some
advise about whether they think you should testify or
not. They know when—they have the rules of evidence,
and so they know when to object and that sort of
thing.
MR. TOUMI: Right.
THE COURT: So that’s the—you know, we lawyers—I’m
a lawyer too, obviously—we always think it’s a bad
idea not to have a lawyer, but you have convinced me
previously that you know about the system somewhat and
that you are sincere in your desire to do it yourself,
so—and we fired your lawyer, I guess, at your request,
but—so I just want to make sure you’re ready to
continue.
MR. TOUMI: Yes. (Aplt. Appx. Ex, 13) This was the
only Faretta v. California, 422 U.S. 806 (1975)
concerning the waiver of right to counsel exchange
between the trial court and appellant during the
entire case. A jury was ultimately seated and at jury
trial the following testimony was presented; Susan
Black and her husband, David, were both homeless when
they were introduced to appellant (DE 11-2 p. 199).

21
Petitioner, who himself had been homeless, was living
with his lady friend, Bonnie Jean Andreozzi (DE 11-2
p. 200-201). Because of a rain storm, appellant
invited Susan and David Black to weather the storm in
the apartment of Andreozzi (DE 11-2 p. 199, 201).
While there the two couples passed the time by
drinking alcohol and sleeping (DE 11-2 p. 201, 211,
215-16). For a time everyone got along without
incident (DE 11-2 p. 211). Then, on December 5, after
having dinner, petitioner went to bed, David Black
left to visit a friend and Andreozzi and Susan Black
sat out on the patio, continuing to drink alcohol and
talking among themselves (DE 11-2 p. 202-03, 211).
Both females went to the freezer for more ice for the
drinks and at the same moment petitioner exited the
bedroom yelling toward Susan Black stating that she
and her husband David Black should leave the apartment
(DE 11-2 p. 203, 213). Susan Black replied to
petitioner that she would leave as soon as David Black
returned (DE 11-2 p. 213). Susan Black, Andreozzi and
petitioner all walked into the living room and
Andreozzi stepped between Susan Black and petitioner
attempting to calm petitioner when petitioner hit
Susan Black in the jaw, knocking her to the floor (DE

22
11-2 p. 203). Petitioner continued to hit her in the
face and head while she curled into the fetal position
(DE 11-2 p. 203-04, 214). In the meantime, Andreozzi
was attempting to separate appellant from Susan Black
(DE 11-2 p. 199). Susan Black then moved to the patio
to get away from petitioner (DE 11-2 p. 199). Police
Officer Pope arrived at the residence and observed
Susan Black wearing a bloody shirt and with blood on
her arms. (DE 11-2 p. 224). Pope observed a cut above
Susan Black’s eye. (DE 11-2 p. 223). Officer Pope
walked around the building and discovered petitioner
laying by the front door of another apartment (DE 11-2
p. 224, 230). Officer Pope observed blood on
petitioner’s hands (DE 11-2 p. 225-26). Petitioner
denied any type of incident however did not offer an
explanation for the bloody hands (DE 11-2 p. 227-28).
Later that day petitioner advised Officer Pope that
Susan Black could not prosecute because she was a
“homeless bitch” (DE 11-2 p. 228). Susan Black was
treated at the hospital and received stitches in the
cut above her eye, which left a scar (DE 11-2 p. 208).
Petitioner apologized for the incident multiple times
during cross-examination of Susan Black (DE 11-2 p.
215, 217, 222). Specifically, Petitioner stated: “I

23
did strike you; I remember that and I apologize very
much for that, and—but what happened that night I
regret deeply. I can’t change it; I’m very sorry that
it happened, you, know, because I really appreciated
you and your husband’s friendship, you know, out there
on the beach. We were all buddies, watching out for
each other. (DE 11-2 p. 215).
REASONS FOR GRANTING THE WRIT
Issue 1: Whether the appellate court erred in concluding
that petitioner was not denied his right to counsel when
the state court accepted petitioner’s motion to withdraw
his guilty plea without first appointing him new conflict
free counsel or providing him an opportunity to confer with
conflict free counsel.
During the August 27, 2010 status hearing the trial
court erred in failing to appoint conflict-free counsel for
petitioner, as requested by the public defender and the
prosecutor, to represent him during the litigation
concerning the issue of the mistaken scoresheet and illegal
sentence challenge then pending before the trial court.
This was clearly stated by the prosecutor who specifically
addressed the trial court on the record concerning this
counsel issue, stating that conflict free counsel was
required due to the adversary relationship between the

24
public defender and appellant (the availability of a
witness to be called on behalf of the public defender
against appellant regarding the plea discussions at the
contemplated evidentiary hearing), the correct
understanding (confirmed by the trial court’s order) on the
part of petitioner that he had been coerced into accepting
the offered plea by the public defender based upon the
mistakenly computed score-sheet, and finally, the law as
set forth in the decision in State v. Schriber, 31 v.
State, 959 So.2d 1254 (Fla. 4th DCA 2007) which requires
the appointment of conflict-free counsel to assist in the
drafting and filing of the Rule 3.170(l) motion to vacate
plea after sentencing during that critical 30 day time
period for appeal following the imposition of sentence.
Notwithstanding the request of the prosecutor, the public
defender and petitioner, the trial court failed and refused
to appoint conflict free counsel, who would have been
possessed of the knowledge of the relevant rules and filed
the appropriate motion to address the mistaken scoresheet
issue, after which, the trial court would have, as required
by the procedure contained within the rule, ordered the
prosecutor to respond and then determine whether an
evidentiary hearing was required. Instead, the trial court
addressed petitioner directly (not his counsel), asked him

25
if he wanted a trial and then vacated the plea and set the
case for trial and only then appointed new conflict-free
counsel. It must be duly noted that the conflict free
counsel appointed after the fact was not present at the
August 27, 2010 hearing; the Office of Regional Conflict
counsel never appeared on behalf of petitioner and only
case activity was to file a motion to withdraw triggering
the appointment of successor counsel whose only case
activity was likewise to move to withdraw after which
petitioner represented himself pro se, thus, petitioner
never actually received any meaningful legal consultation
or counsel after the August 27, 2010 hearing. In Padgett v.
State, 743 So.2d 70 (Fla. 4th DCA 1999), the Fourth
District Court of Appeals held that “A defendant’s right to
effective assistance of counsel in the appeal of the issues
which were presented in, and preserved by, the filing of a
motion pursuant to Fla.R.Crim. P. 3.170(l) (hereinafter
“motion to vacate”) would by hollow indeed if the defendant
were not allowed the guiding hand of counsel to assist in
preparing the initial motion to withdraw the plea. To hold
to the contrary would be to carve out of a defendant’s
right to counsel that thirty-day widow between the
rendition of sentence and the taking of an appeal—the very
period during which the defendant by raise issues under

26
rule 3.170(l) which would be cognizable during the direct
appeal. Thus, we conclude that a motion filed pursuant to
rule 3.170(l) does not amount to a collateral attack upon
the conviction, but rather is a critical stage in the
direct criminal proceeding against the defendant at which
the accused must be entitled to effective assistance of
counsel.” Id 1256-57. In neglecting this fundamental
principal, the trial court initiated a sequence of events,
which in the end resulted in petitioner not having original
illegal 24 month sentence corrected pursuant to 33 a motion
pursuant to Fla.R.Crim.P. 3.800(b) (hereinafter referred to
as motion to correct sentence), instead his plea was
vacated after which he effectively had no counsel and
ultimately was sentenced to a 15 year mandatory state
prison sentence. Other, Florida appellate courts have
likewise held that a defendant is entitled to court
appointed counsel to advise and assist him in preparing a
motion to withdraw guilty plea (this is not a unique legal
concept). Mosley v. State, 932 So.2d 1239 (Fla. 1st DCA
2006); Banks v. State, 927 So.2d 169 (Fla. 1 st DCA 2006);
Norman v. State, 897 So.2d 553 (Fla. 1st DCA 2005); Smith
v. State, 849 So.2d 485 (Fla. 2d DCA 2003); Meeks v. State,
841 So.2d 648 (Fla. 2d DCA 2003); Wofford v. State, 819
So.2d 891 (Fla. 1st DCA 2002). Three (3) related rules of

27
procedure govern the challenge to and judicial review of an
illegal sentence imposed based upon a guilty plea made in
reliance on a mistakenly computed scoresheet, as which
happened in this case. The first governing rule is
Fla.R.Crim.P. 3.170(l) (hereinafter referred to a rule
3.170) which allows for a motion to withdraw the guilty
plea within thirty days after sentencing. The motion may
only be made (after sentence is imposed) upon the limited
grounds specified in Fla.R.App.P. 9.140(b)(2)(A)(ii)a-e
(hereinafter referred to as rule 9.140), ( there is a
direct cross reference between rule 3.170 and rule 9.140
regarding the remedy for an illegal sentence). Among these
options, the only ground applicable to the case at bar is
that the guilty plea was involuntary when made due to the
mistaken scoresheet computation in rule 9.140(b)
(2)(A)(ii)c. While it is clear that petitioner claimed in
all of his motions that his guilty plea was the product of
coercion (based upon the mistakenly computed scoresheet and
the possibility of additional prison time up to the then 5
year maximum) and was thus involuntary, triggering the
motion to vacate in order to preserve his right to appeal
remedy as required by rule 9.140. Because the crux of the
trial court’s error was the mistakenly computed scoresheet
which was accepted by the prosecutor, the public defender

28
and the trial court in cementing the illegal sentence,
appellant submits that the correct and appropriate remedy
available to fix the error would have been rule 9.140(e).
The rule reads as follows: “Sentencing Errors. A sentencing
error may not be raised on appeal unless the alleged error
has first been brought to the attention of the lower
tribunal: (1) at the time of sentencing; or (2) by motion
pursuant to Florida Rule of Criminal Procedure 3.800(b).”
As outlined above, the only motion filed by the public
defender was the original motion to vacate guilty plea
pursuant to rule 3.170. After that motion was denied
without a hearing, petitioner filed two pro se motions to
correct sentence pursuant to rule 3.800(b). At the time of
the August 27, 2010 hearing, the only pending motion before
the trial court was petitioner’s amended motion to correct
sentence (his original motion was denied by written order
prior to the August 27, 2010 hearing). The hand written
order signed by the trial court on August 27, 2010 was
entitled “Order on Motion to Correct Sentence.” The relief
granted in the order, the vacating of the guilty plea,
dismissal of the public defender and appointment of
counsel, was that requested in the original motions to
vacate plea all of which were previously denied.
Petitioner’s amended motion to correct sentence requested

29
the remedy of correction of the mistakenly computed
scoresheet and an appropriate resentencing utilizing the
corrected scoresheet. Petitioner submits that had the trial
court appointed effective conflict-free counsel, and
rescheduled the hearing to allow for meaningful attorneyclient consultation and appropriate legal action, a rule
3.800(b) motion which specifically addressed the mistakenly
computed scoresheet remedy, would have been filed to direct
the attention of the court to the basic problem of the
mistakenly computed scoresheet and the appropriate legal
remedy for that issue, and the court would have followed
the procedure set forth in rule 3.800(b), corrected the
scoresheet and corrected the illegal sentence. Rule
3.800(b) reads as follow: “Motion to Correct Sentencing
Error: A motion to correct any sentencing error, including
an illegal sentence, may be filed as allowed by this
subdivision. This subdivision shall not be applicable to
those cases in which the death sentence has been imposed
and direct appeal jurisdiction is in the Supreme Court
under article V, section 3(b)(1) of the Florida
Constitution. The motion must identify the error with
specificity (the mistakenly computed scoresheet) and
provide a proposed correction. A response to the motion may
be filed within 15 days, either admitting or contesting the

30
alleged error. Motions may be filed by the state under this
subdivision only if the correction of the sentencing error
would benefit the defendant or to correct a scrivener's
error. (1) Motion Before Appeal. During the time allowed
for the filing of a notice of appeal of a sentence, a
defendant or the state may file a motion to correct a
sentencing error. (A) This motion shall stay rendition
under Florida Rule of Appellate Procedure 9.020(i). (B)
Unless the trial court determines that the motion can be
resolved as a matter of law without a hearing, it shall
hold a calendar call no later than 20 days from the filing
of the motion, with notice to all parties, for the express
purpose of either ruling on the motion or determining the
need for an evidentiary hearing. If an evidentiary hearing
is needed, it shall be set no more than 20 days from the
date of the calendar call. Within 60 days from the filing
of the motion, the trial court shall file an order ruling
on the motion. A party may file a motion for rehearing of
any signed, written order entered under subdivisions (a)
and (b) of this rule within 15 days of the date of service
of the order or within 15 days of the expiration of the
time period for filing an order if no order is filed. A
response may be filed within 10 days of service of the
motion. The trial court's order disposing of the motion for

31
rehearing shall be filed within 15 days of the response but
not later than 40 days from the date of the order of which
rehearing is sought. A timely filed motion for rehearing
shall toll rendition of the order subject to appellate
review and the order shall be deemed rendered upon the
filing of a signed, written order denying the motion for
rehearing. The foregoing rule provisions allow for the
administrative correction of a routine sentencing error
which is exactly what happened in appellant’s case. The
trial court has available this mechanism to correct a
sentencing mistake in conjunction with the appropriate
appellate remedy after original proceedings if additional
review is warranted. Certainly, any competent, newly court
appointed, conflict-free counsel would have identified the
appropriate rule 3.800 motion to correct sentence remedy
immediately and filed the motion specifically identifying
the plain sentencing error and demanding the appropriate
remedy under the rule, the correction of the mistakenly
computed scoresheet (which was affirmatively conceded to be
mistakenly computed by the trial court in the August 27,
2010 order) and a sentencing anew incorporating the
corrected scoresheet. Rather than following the elementary
procedures outlined above, instead, the trial court, sue
sponte, vacated the judgment and sentence and scheduled the

32
case for jury trial (after which the charges were increased
and enhanced and petitioner effectively had no lawyer). All
of the above errors would have been cured by the
appointment of conflict-free counsel followed by a brief
postponement of the proceedings to allow for the above
described legal work to occur and provide effective
representation during the critical 30 day period following
the entry of judgment after the public defender filed the
motion to vacate plea, documenting the conflict between the
public defender and petitioner and requesting appointment
of conflict free counsel. The public defender filed the
motion to vacate, withdraw and appoint counsel, which was
the incorrect legal remedy to correct this routine
sentencing error, the mistakenly computed. A motion to
correct sentence pursuant to rule 3.800(b) being filed by
conflict-free counsel (which in not making this appointment
amounted to the critical error by the trial court in this
case) would have been considered by the trial court,
responded to by the prosecutor if necessary (who when
actually responding in open court on August 27, 2010,
agreed that the scoresheet was mistaken as outlined above)
and then granted by the trial court as it was not disputed
that the scoresheet was mistakenly computed and incorrect,
resulting a resentencing in reliance upon the corrected

33
scoresheet and revised sentencing options, including the
option of a non-state prison sentence. Due to the trial
court’s refusal to appoint the requested conflict free
counsel, following the denial of the original motion,
petitioner was effectively abandoned by counsel during the
remainder of the litigation on the motions and was further
required to represent himself during the remainder of his
case (through the jury trial and verdict). Had the court
appointed conflict free counsel, as requested by both sides
and required by law, petitioner’s original negotiated plea
would never have been vacated, his scoresheet would have
been corrected and he would have been resentenced pursuant
to the corrected scoresheet in accordance with the law.
On the subject of the conflict of interest between
petitioner and the public defender, the appellate court
held that “the record establishes that she filed a Rule
3.170 motion to withdraw his plea based on the incorrect
scoresheet, acknowledged her own ineffectiveness in failing
to realize the error, and strongly advocated at the motion
hearing that Tuomi should be able to withdraw his plea.
Nothing in the record suggests that Tuomi’s counsel had
inconsistent interests or made a choice between actions
that favored her own interest over Tuomi’s…Thus, Tuomi
failed to show that his counsel of record at the time of

34
his motion to withdraw his plea had an actual conflict of
interest.” Appendix; Page 14.

The court ignores the facts

that the public defender was present in court with an
available witness to testify about the disputed plea
negotiations with petitioner.

The court held as a matter

of law that “Tuomi cannot show adverse effect because a
Rule 3.800 motion was not a viable alternative under
Florida law. Specifically, in Florida, when a defendant
enters a negotiated plea based on an incorrect score sheet,
any error is considered harmless and a defendant’s “only
avenue of relief” is to seek to withdraw the plea due to
its involuntary nature under Rule 3.170. Ruff v. State, 840
So. 2d 1145, 1147 (Fla. 5th Dist. Ct. App. 2003) “In
essence, scoresheet errors are considered harmless when a
sentence is the result of a negotiated plea agreement.”);
Corp v. State, 698 So. 2d 1349, 1350 (Fla. 1st Dist. Ct.
App. 1997).

With this perceived controlling law, if the

erroneous scoresheet is harmless error then the trial court
should have denied all motions finding the error harmless
allowing petitioner to finish serving his original
sentence.

The appellate court is incorrect in concluding

that the court’s orders were not based upon an unreasonable
determination of the facts at hand.

To hold that no relief

is available because the error was harmless after relief

35
was granted on those facts to the detriment of petitioner
where his short prison sentence was replaced by a 15 year
mandatory sentence.
Petitioner requests this honorable court remand this
case to the appellate court with instructions to direct the
court to vacate appellant’s judgment and 15 year prison
sentence, reinstate his original guilty plea to the first
amended battery charge, appoint conflict free counsel and
allow 30 days for conflict free counsel to consult with
appellant and draft and file a motion to correct sentence
and hold proceedings thereon as required by rule as the
appropriate remedy for the violation of appellant’s Sixth
Amendment right to counsel.

Issue 2: Whether the appellate court erred in concluding
that petitioner’s appellate counsel was not ineffective for
failing to argue that he had been denied his right to
conflict free counsel before withdrawing his guilty plea.
Petitioner reincorporates the argument in Issue 1
above as the errors presented therein form the predicate
for relief which would have been granted had the issue been
raised on appeal by appellate counsel. Petitioner’s
appellant counsel was ineffective in failing to raise the
trial court’s error in failing to appoint conflict-free

36
counsel prior to hearing any motions to vacate plea or
correct sentence. As argued above, had conflict free
counsel been appointed as requested by the parties and
required by law, appellant would have been afforded the
opportunity, thorough a conflict-free counsel, to correct
his illegal sentence imposed which incorporated the
mistakenly computed scoresheet, rather than his current 15
year state prison sentence. It is undisputed that the
scoresheet was mistakenly and erroneously computed
resulting in a material sentencing error and an illegal
sentence (all argued above), and this issue was cognizable
on appeal either directly or through the rule 3.170; rule
9.140 and rule 3.800(b) motions. As a matter of law, to be
entitled to relief grounded upon ineffective assistance of
appellate counsel, petitioner has demonstrated that his
appellate counsel's failure to raise this issue (the
failure to appoint conflict free counsel for litigation to
challenge his illegal sentence) in appellant’s direct
appeal directly and materially prejudiced appellant.
Rutherford v. Moore, 774 So. 2d 637, 643 (Fla. 2000). In
Brooks v. Comm’r, Ala. Dep’t of Corr., 719 F.3d 1292, 1300
(11th Cir. 2013) the court ruled that: “Claims of
ineffective assistance of appellate counsel are governed by
the same standards applied to trial counsel under

37
Strickland.” Citing to, Strickland v. Washington, 466 U.S.
690 (1984).

Petitioner requests this honorable court

remand this case to the appellate court with instructions
to direct the court to vacate appellant’s judgment and 15
year prison sentence, reinstate his original guilty plea to
the first amended battery charge, appoint conflict free
counsel and allow 30 days for conflict free counsel to
consult with appellant and draft and file a motion to
correct sentence and hold proceedings thereon as required
by rule as the appropriate remedy for the violation of
appellant’s Sixth Amendment right to counsel.
Issue 3: Whether the appellate court erred in concluding
petitioner’s appellate counsel was not ineffective for
failing to raise a claim that petitioner did not knowingly
and voluntarily waive his right to conflict free counsel in
violation of Faretta v. California.
The trial court made no substantial, effective effort
to determine whether or not appellant is knowingly and
intelligently waiving the right to counsel, therefore,
petitioner’s appellate counsel was ineffective for failing
to raise this claim on appeal as appellant did not have
possibly knowingly and voluntarily waive his right to
counsel in violation of Faretta v. California, 422 U.S. 806
(1975). Had the issue been raised on direct appeal by

38
appellate counsel, whether or not appellants waiver of
counsel was knowing and intelligent would be determined by
the required consideration by the appellate court of
whether or not the trial court considered any of the
following factors: 1) What is the defendant’s age and
education and background (no inquiry by the trial court at
any time); 2) What is the Defendant’s mental condition (no
inquiry by the trial court at any time); 3) Does the
defendant understand the dangers and disadvantages of selfrepresentation (no inquiry by the trial court at any time),
including; a) the nature and complexity of the case (no
inquiry by the trial court at any time); b) the seriousness
of the charge (no inquiry by the trial court at any time);
c) the potential sentence (no inquiry by the court at any
time); d) the possibility of sentence enhancement, such as
habitual offender, use of a firearm, or use of a mask (no
inquiry by the trial court at any time); 4) What is the
defendant’s experience in the criminal justice system (no
inquiry by the trial court at any time); 5) Does the
defendant understand the requirement to abide by the rules
of courtroom procedure (limited discussion on procedure
related to jury selection as outlined below); 6) Was the
defendant represented by counsel before trial (no inquiry
regarding prior counsel at any time); 7) Is the waiver the

39
result of coercion or mistreatment? (no inquiry by the
trial court at any time) Faretta v. California, 422 U.S.
806 (1975). In light of the foregoing, appellate counsel
was ineffective for failing to raise the waiver of counsel
issue on direct appeal, which issue was aggravated by the
fact that the waiver of counsel occurred after the
withdrawal to three different court appointed lawyers
between August 27, 2019 and his jury trial where none of
the three lawyers provided any legal advice to petitioner.
In addition to the Supreme Court’s required procedure
established in Faretta, Fla. R. Crim. P. 3.111(d)
(hereinafter rule 3.111) provides that: “(1) The failure of
a defendant to request appointment of counsel or the
announced intention of a defendant to plead guilty shall
not, in itself, constitute a waiver of counsel at any stage
of the proceedings. (2) A defendant shall not be considered
to have waived the assistance of counsel until the entire
process of offering counsel has been completed and a
thorough inquiry has been made into both the accused
comprehension of that offer and the accused capacity to
make a knowing and intelligent waiver. Before determining
whether the waiver is knowing and intelligent, the court
shall advise the defendant of the disadvantages and dangers
of self-representation.” In addition failing to raise

40
Faretta violation on appeal, appellate counsel was
ineffective in failing to raise the trial court’s noncompliance with rule 3.111 concerning the waiver of counsel
issue. Petitioner requests this honorable court remand this
case to the district court with instructions to direct the
trial court to vacate appellant’s judgment and 15 year
prison sentence, reinstate his original guilty plea to the
first amended battery charge, hold a hearing as required by
Faretta v. California, 422 U.S. 806 (1975) and
Fla.R.Crim.P. 3.111(d) and thereafter appoint conflict free
counsel and allow 30 days for conflict free counsel to
consult with petitioner and draft and file a motion to
correct sentence and hold proceedings thereon as required
by rule as the appropriate remedy for denial of
petitioner’s Sixth Amendment right to counsel; or in the
alternative with directions to direct the trial court to
allow appointment of conflict free counsel to file a direct
appeal of the original proceedings in conformity with any
other available remedy under rule.

41
CONCLUSION
For the foregoing reasons, petitioner respectfully
submits that the petition for writ of certiorari should be
granted.

DATED this 11th day of February, 2021.
/s/ A. Wallace
____________________________
ARTHUR L. WALLACE, III, ESQ.
Counsel for the Defense
Florida Bar No. 769479
Arthur Wallace
Attorney at Law PLLC
1835 E. Hallandale Bch. Blvd.
Ste. 784
Hallandale Bch., FL 33009
Phone/Text: (954) 213-4032
Email:WallaceLawFirm@Yahoo.com

42

APPENDIX “A”

